W                                                                  September 16, 1999


TO:           B/Chief Financial Officer

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Audit of Selected Internal Controls Related to Financial
              Statement Audits
              Assignment Number A9904100
              Report Number IG-99-040


The subject final report is provided for your use and comment. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. In response to management’s comments, we revised recommendation 2.
Please notify us when action has been completed on these recommendations, including the extent
of testing performed to ensure corrective actions are effective. All recommendations remain
open.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Ms. Van Tran,
Auditor-in-Charge, at (202) 358-0466. We appreciate the courtesies extended to the audit staff.
See Appendix E for the report distribution.


[original signed by]
Russell A. Rau

Enclosure
                                              2

cc:
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
                           3
bcc:
B/L. Lauria
AIGA, IG, Reading Chrons
                                                          IG-99-040



AUDIT                         SELECTED INTERNAL CONTROLS
                            RELATED TO FINANCIAL STATEMENT
REPORT                                   AUDITS
                                     September 16, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W, Room 8V69
       300 E Street, SW
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to
the extent permitted by law.




Acronyms

CATS           Corrective Action Tracking System
CFO            Chief Financial Officer
CPA            Certified Public Accountant
FY             Fiscal Year
OIG            Office of Inspector General
OMB            Office of Management and Budget
NPG            NASA Procedures and Guidelines
Contents                                              __________________

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Identifying Laws and Regulations, 2

     Finding B. Tracking External Auditor Recommendations, 4

Appendix A - Objectives, Scope, and Methodology, 6

Appendix B - Quality Control Review, 7

Appendix C - Lists of Laws and Regulations, 8

Appendix D - Management’s Response, 9

Appendix E - Report Distribution, 10
                                 NASA Office of Inspector General
IG-99-040                                                                                September 16, 1999
 A9904100

         Selected Internal Controls Related to Financial Statement Audits


                                           Executive Summary


Background. The NASA Office of Inspector General (OIG) contracted with Arthur Andersen
LLP, a certified public accounting (CPA) firm as the independent, external auditor, to audit the
NASA fiscal year (FY) 1998 Financial Statements. To ensure the quality of the audit work
performed, we completed a quality control review of Arthur Andersen’s reports and related
working papers.1 The reports issued by Arthur Andersen principally provided (1) an opinion on
the financial statements and (2) test results on internal controls and compliance with laws and
regulations. These reports are required pursuant to provisions of the Office of Management
Budget (OMB) Bulletin 98-08, “Audit Requirements for Federal Financial Statements,”
August 24, 1998.

As part of a financial statement audit, NASA management executes a management representation
letter2 that states, among other things, that the Agency has identified laws and regulations
applicable to NASA. The audit should complement this representation by management by
considering those laws and regulations determined to have a direct and material effect on the
financial statements and related disclosures.

Objectives. Our overall objective was to evaluate selected internal controls related to financial
statement audits. Specifically, we determined whether NASA identified significant provisions of
laws and regulations for compliance purposes and established an effective follow-up system to
address recommendations made by external auditors. Appendix A contains additional details on
our objectives, scope, and methodology.

Results of Audit. Controls related to the Agency financial statements could be improved.
NASA has identified certain laws and regulations that could have a direct and material effect on
the financial statements. The Agency’s list, however, was incomplete and did not agree with that
of the external auditor (Finding A). As a result, the NASA management representation letter
may not cover all significant laws and regulations, which would, in turn, be considered by the
auditors in determining the scope of the audit. Further, NASA does not use its existing Agency-



1
  The scope and results of our quality control review are summarized in Appendix B.
2
  The management representation letter serves to document representations explicitly or implicitly made by
management in response to the auditors’ specific inquiries and to reduce any misunderstandings that could arise
relating to matters discussed in the representation letter. The letter must be signed, at a minimum, by the Agency
Head and the Chief Financial Officer and must be submitted annually to the auditors.
wide Corrective Action Tracking System (CATS)3 to track recommendations resulting from the
financial statement audits (Finding B). Consequently, the Agency’s reporting of the status of
corrective actions on audit recommendations is not complete, and timely resolution and
disposition in accordance with the established follow-up process may not occur.

Recommendations. We recommend that NASA:

        •    Require Agency financial management to annually coordinate with the external
             auditor in identifying the laws and regulations that have a direct and material effect on
             the financial statements and that are the basis for the management representation
             letter.

        •    Provide timely, semiannual status reports on the resolution and disposition of
             recommendations resulting from audits of financial statements.

Management’s Response. Management concurred with the recommendations. The complete
text of the response is in Appendix D. We consider management’s comments responsive.




3
  NASA has established procedures that include use of the CATS for following up, tracking, and reporting on the
status of audit recommendations. The procedures are set forth in NASA Procedures and Guidelines 1200.1,
“Management Accountability and Control, Audit Liaison, and Audit Followup,” dated October 8, 1997.




                                                        ii
Introduction

The Chief Financial Officers Act of 1990 requires NASA to produce financial statements and the
OIG to either audit or provide for an independent, external auditor to audit the statements.
Starting with FY 1996, the OIG contracted with Arthur Andersen to audit the NASA financial
statements. Our responsibilities for audits conducted under contract are identified in the
Inspector General Act of 1978, as amended; the Chief Financial Officers Act of 1990, as
amended; and OMB Bulletin 98-08, as amended. Generally, our responsibility is to ensure that
the audit conforms to generally accepted government auditing standards and applicable statutory
and regulatory requirements. Further, paragraph 10 of OMB Bulletin 98-08 requires the
Inspector General to:

       •   ensure that audits are performed and audit reports are completed in a timely manner
           and in accordance with the Bulletin requirements;
       •   provide technical advice and a liaison to agency officials and independent, external
           auditors;
       •   perform quality control reviews and provide the results to interested organizations;
           and
       •   monitor and report on management's progress in resolving audit findings identified by
           independent, external auditors.

The NASA Office of the Chief Financial Officer (CFO) has overall responsibilities for producing
the financial statements and for responding to the external auditor’s findings and
recommendations. In some instances, the recommendations involve other Headquarter Offices
(such as the Offices of General Counsel, Policy and Plans, or Information Technology) and thus
require the coordination of Agency officials.

The NASA Management Assessment Division, Office of Management Systems, has overall
responsibility for tracking and reporting on the status of audit recommendations. As outlined in
NASA Procedures and Guidelines (NPG) 1200.1, the responsibility encompasses managing
CATS; drafting the required audit status reports to the Administrator and from the Administrator
to Congress; and ensuring that NASA follow-up activities comply with OMB Circular A-50,
“Audit Followup,” and the Inspector General Act of 1978, as amended.
Findings and Recommendations

Finding A. Identifying Laws and Regulations

NASA did not identify a complete list of laws and regulations that affect its financial statements
and that are the basis for the management representation letter. The Agency considered it to be
the auditor’s responsibility to develop the list and to conduct associated compliance testing and
thus did not make the listing available. A complete list, coordinated between NASA and the
external auditor, would (1) ensure that all significant provisions of laws and regulations are
tested for compliance and (2) provide the Agency assurance that it has adequately specified a
minimum scope of compliance testing when recompeting future contracts for financial statement
audits.

Responsibilities for Identifying Significant Laws and Regulations

NASA acknowledged its responsibility for the fair presentation of the financial statements by
including certain written representations in its management representation letter, dated
February 3, 1999, to Arthur Andersen. The NASA letter states:

               •   We are responsible for identification and compliance with laws and
                   regulations applicable to NASA.
               •   We have identified and disclosed to you all laws and regulations that have a
                   direct and material effect on the determination of financial statement
                   amounts.

Arthur Andersen is responsible for testing and reporting on NASA compliance. OMB Bulletin
98-08, section 6d, states, “. . . the auditor shall perform tests of compliance with laws and
regulations that could have a direct and material effect on the [financial statements], and any
other laws, regulations, and governmentwide policies identified by OMB in Appendix C of this
Bulletin.” To aid in the identification process, auditors ordinarily review the lists of laws and
regulations that the Agency and OMB have determined might be significant, in addition to those
the auditors identified. Section 7c(3) then specifies the requirements for reporting on the
Agency’s compliance. In particular, auditors must state in the report whether tests disclosed
reportable instances of noncompliance.

Lists of Laws and Regulations

While the Agency identified a list of applicable laws and regulations, the list was incomplete and
did not agree with that of the external auditor. The CFO Office, for example, did not identify
laws related to single audit or debt collection. Included on the CFO’s list were the Government
Performance and Results Act and Government Management Reform Act. Those acts were not on
the auditor’s list (see Appendix C). Arthur Andersen developed its list based on reviews of




                                                      2
OMB bulletins4 and through discussions with NASA headquarters officials from the Offices of
the General Counsel and Legislative Affairs. The lists differed primarily because the Agency did
not coordinate its identification effort with that of Arthur Andersen. CFO officials stated that
they did not provide the list to the external auditor for consideration because such action could
potentially impair auditor independence. While we agree that the auditor must be able to
independently set the scope of the audit, this does not preclude NASA management from
identifying and communicating laws and regulations that affect its financial statements. It would
be in the Agency’s best interest to work with the external auditor in compiling one list and
ensuring its completeness as there are other laws and regulations that could also materially affect
NASA financial statements. Examples include certain provisions of the Federal Acquisition
Regulation and the OMB bulletin5 or circulars.6 The management representation letter and the
auditor report on NASA compliance should be consistent, specifically with regard to the laws
and regulations tested.

Without better coordination, NASA has no assurance that all the significant laws and regulations
that should be tested are tested for compliance. Moreover, the procurement process for the
FY 2001 financial statement audit will soon begin. Adequately specifying contract requirements,
such as the minimum scope of compliance testing to be performed, is essential to obtaining
responsive offers for the contract.

Recommendation, Management’s Response, and Evaluation of Response

1. The Chief Financial Officer should annually coordinate with the external auditor in
   identifying the laws and regulations that NASA considers to have a direct and material
   effect on the financial statements and that are the basis for the management
   representation letter.

Management’s Response. Management concurred with the recommendation and will meet with
the external auditors on September 20, 1999. The complete text of the comments is in
Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.




4
  OMB Bulletin 93-06, “Audit Requirements for Federal Financial Statements,” January 8, 1993, was amended by
OMB Bulletin 98-08 on August 24, 1998. The bulletins identify the significant provisions of laws and regulations
that are common to most Federal agencies. Noncompliance with those laws and regulations could have a direct and
material effect on financial statements.
5
  OMB Bulletin 97-01, “Form and Content of Agency Financial Statements.”
6
  OMB circulars related to Federal financial management include: A-50, “Audit Followup”; A-123, “Management
Accountability and Control”; A-127, “Policies and Standards for Financial Management Systems”; A-133, “Audits
of State, Local Governments, and Non-Profit Organizations”; and A-134, “Financial Accounting Principles and
Standards.”

                                                        3
Finding B. Tracking External Auditor Recommendations

Although NASA has the CATS in place to track audit findings issued by Federal audit entities,
NASA does not use the system to track findings or recommendations made by a non-Federal
auditor, such as Arthur Andersen. Since the CPA firm is acting on behalf of the OIG in the
performance of the audit, the same resolution and disposition procedures applicable to OIG
reports should be used.7 NPG 1200.1 currently does not address such requirements. As a result,
recommendations resulting from the financial statement audits do not receive the same level of
visibility as do those resulting from OIG audits.

Requirements Related to Audit Follow-up

OMB Circular A-50, “Audit Followup,” dated September 29, 1982, requires Federal agencies to
establish follow-up systems to resolve audit findings issued by the Inspector General, other
executive branch audit organizations, the General Accounting Office, and non-Federal auditors.
A single tracking system, however, is not mandatory. For audits performed by non-Federal
auditors, section 8(2) of the Circular requires prompt resolution (that is, within 6 months after
receipt of the report by the agency) and completion of corrective actions on audit
recommendations. The Circular also requires the preparation of semiannual reports to the agency
head on the status of all unresolved audit reports more than 6 months old, the reasons for the
delay, and a timetable for their resolution.

The semiannual reporting requirements are also in the Inspector General Act of 1978, as
amended. Section 5(b) requires that the agency head submit a report to Congress detailing the
status of various audit reports, including “a statement with respect to audit reports on which
management decisions have been made but final action has not been taken. . . .” The semiannual
report must also include an explanation as to why final action has not been taken on
recommendations.

As set forth in NPG 1200.1, the NASA Management Assessment Division uses the Agency-wide
CATS to track the status of audit activities (that is, audits in progress or corrective actions for
each audit recommendation) of Federal audit organizations, such as the OIG, General Accounting
Office, and Defense Contract Audit Agency. The tracking system allows for ad hoc query and
reporting capabilities among the NASA Centers and Headquarters. The system also serves as the
source for preparing the required follow-up status reports. NPG 1200.1 also provides detailed
guidance on the resolution and disposition of audit recommendations issued by Federal audit
organizations.

Current Tracking Process

Although an Agency-wide follow-up system exists, NASA does not use it to track external
auditor (that is, non-Federal auditor) recommendations. Instead, the Agency CFO office tracks

7
 The OIG includes open and nondispositioned recommendations for corrective action in its semiannual report to the
Congress.

                                                        4
the status of corrective actions internally. For recommendations pertaining solely to financial
management, the CFO Office establishes action plans that address the findings and
recommendations, distributes the action plans to the field Centers for implementation, and
documents in its internal working papers the corrective actions taken. For recommendations
involving other Headquarters offices, the CFO Office also coordinates the corrective action plans
and tracks the implementation.

The above process could result in a lack of timely corrective actions on recommendations made
by external auditors. In the FY 1997 Financial Statement Audit, for example, Arthur Andersen
identified a reportable condition related to the need to improve information technology policies
and procedures to prevent unauthorized access to NASA financial management systems.
Because the CFO Office tracked the recommendation only internally, Agency officials may not
have given it the needed emphasis to fully resolve the finding. When following up on this
recommendation, Arthur Andersen found that corrective actions were not sufficient to correct the
problem. Consequently, the external auditor reported the finding again in FY 1998.

Policy on the Use of the CATS

The CFO Office does not use CATS to track recommendations made by the external auditor
because existing policy does not require such use. The current NPG 1200.1 discusses
requirements for the tracking, resolution, and disposition of recommendations issued by Federal
audit entities only. Thus, recommendations made by Arthur Andersen, a non-Federal auditor, do
not receive the same visibility, such as inclusion in the semiannual status reports to the NASA
Administrator and Congress, as required by both OMB Circular A-50 and the Inspector General
Act. The resolution and disposition status of the information technology finding, for example,
was not discussed in the NASA Semiannual Management Report to Congress on the Status of
Audit Followup, for the period ending September 30, 1998. This lack of visibility can and has
resulted in repeat findings in the financial statement audits. By applying the same procedures to
OIG and CPA firm audit reports, NASA can ensure effective follow-up or completion of
agreed-to corrective actions.

Recommendation, Management’s Response, and Evaluation of Response

2. The NASA Chief Financial Officer should provide timely, semiannual status reports on
   the resolution and disposition of recommendations resulting from audits of financial
   statements.

Management’s Response. Management concurred with the recommendation and will provide
status reports to the Inspector General and external auditors by September 30, 1999. The
complete text of the comments is in Appendix D.

Evaluation of Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.


                                                5
6
                 Appendix A. Objectives, Scope, and Methodology


Objectives

Our overall objective was to evaluate selected internal controls related to financial statement
audits. Specifically, we determined whether NASA identified significant provisions of laws and
regulations for compliance purposes and established an effective follow-up system to address
recommendations made by external auditors.

Scope and Methodology

We examined and tested applicable records and documentation (dated from October 1978 through
May 1999) to identify applicable management controls and to verify that the controls were working
as described. Specifically, we reviewed the NASA management representation letter, action plans,
applicable NASA policy and procedures and guidelines, and applicable OMB circulars and bulletins.
We also reviewed the external auditor’s working papers supporting the FY 1998 financial statement
audit.

Audit Field Work

We conducted our audit from March through May 1999 at Headquarters in accordance with
generally accepted government auditing standards.




                                               7
                         Appendix B. Quality Control Review


NASA Inspector General report IG-99-018, “Quality Control Review of Arthur Andersen LLP
Audit of the National Aeronautics and Space Administration Financial Statements for Fiscal
Year Ended September 30, 1998,” March 31, 1999, states that Arthur Andersen conducted the
audit in accordance with government auditing standards and provisions of OMB Bulletin 98-08.
Specifically, Arthur Andersen planned, executed, and reported the results of its audit according to
applicable standards and issued the reports in a timely manner. Report IG-99-018 also
summarized results of Arthur Andersen’s audit and status of prior year audit recommendations.




                                                8
                        Appendix C. Lists of Laws and Regulations

Laws and Regulations Identified by the Office of Chief Financial Officer

     1     Accounting and Auditing Act
     2     Anti-Deficiency Act
     3     Budget and Accounting Procedures Act
     4     Chief Financial Officers Act
     5     Federal Financial Management Improvement Act
     6     Federal Managers’ Financial Integrity Act
     7     Government Management Reform Act
     8     Government Performance and Results Act
     9     Prompt Payment Act


Laws and Regulations Identified and Tested by Arthur Andersen

     For the FY 1998 audit, Arthur Andersen considered the following laws and regulations as
     having a potential direct and material effect on the financial statements. Arthur Andersen
     tested for NASA compliance accordingly. Because the tests disclosed no reportable
     noncompliance, Arthur Andersen is not required to list the laws and regulations it tested in
     the report.

1        Anti-Deficiency Act
2        Departments of Veterans Affairs, Housing and Urban Development, and Independent
         Agencies Appropriations Act, 1998
3        Budget and Accounting Procedures Act of 1950
4        Chief Financial Officers Act of 1990
5        Debt Collection Act of 1982, 1990, and 1996
6        Federal Employees’ Compensation Act
7        Federal Employees’ Group Life Insurance Act of 1980
8        Federal Employees’ Health Benefits Act of 1959
9        Federal Financial Management Improvement Act of 1996
10       Federal Managers’ Financial Integrity Act of 1982
11       NASA Space Act of 1958
12       National Defense Authorization Act for Fiscal Year 1991 (Closed Account
         Legislation)
13       Pay and Allowance System for Civilian Employees: Civil Service Reform Act of
         1978, Civil Service Retirement Act of 1930, Fair Labor Standards Act of 1938
14       Prompt Payment Act
15       Single Audit Act of 1984 and Single Audit Act Amendments of 1996



                                                  9
Appendix D. Management’s Response




               10
                           Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

Code A/Administrator
Code AI/Associate Deputy Administrator
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code BF/Director, Financial Management Division
Code G/General Counsel
Code J/Associate Administrator for Management Systems
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code Z/Associate Administrator for Policy and Plans

NASA Center

Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations




                                               11
                                                                      Appendix E

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees (Cont.)

House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             12
Major Contributors to This Report

Chester A. Sipsock, Director, Environmental and Financial Management Audits
Van Tran, Auditor-in-Charge
